No. 19-402
[N THE SUPREME COURT OF THE UNITED STATES
HOWARD L. BALDWIN AND KAREN B. BALDWIN, PETITIONERS
V.

[[NITED STATES OF AMERICA

CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of
the BRIEF FOR THE UNITED STATES IN OPPOSITION, via e-mail and first-class mail,
postage prepaid, this 9th day of December 2019.
[See Attached Service List]
As required by Supreme Court Rule 33.1(h), I certify that the document contain 6,385 words,
excluding the parts of the document that are exempted by Supreme Court Rule 33.1(d). I declare
under penalty of perjury that the foregoing is true and correct. Executed on
December 9, 2019

Noel J. Francisco
Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217
December 9, 2019
Due to the continuing delay in receiving incoming mail at the Department of Justice, in
addition to mailing your brief via first-class mail, we would appreciate a fax or email copy of
your brief. If that is acceptable to you, please fax your brief to Charlene Goodwin, Case
Management Supervisor, Office of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefs@USDOJ.gov. Ms. Goodwin's phone number is (202) 514-2217 or 2218.
Thank you for your consideration of this request.

19-0402
BALDWIN, HOWARD L., ET UX
USA

ANTHONY T. CASO
CHAPMAN UNIVERSITY FOWLER SCHOOL OF
LAW
ONE UNIVERSITY DRIVE
ORANGE, CA 92866
714-628-2650
CASO@CHAPMAN.EDU
ADITYA DYNAR
NEW CIVIL LIBERTIES ALLIANCE
1225 19TH STREET, NW
SUITE 450
WASHINGTON, DC 20036
202-908-6202
ADITYA.DYNAR@GMAIL.COM
FRANK D. GARRISON
NATIONAL RIGHT TO WORK LEGAL
DEFENSE FOUNDATION, INC.
8001 BRADDOCK ROAD
SUITE 600
SPRiNGFIELD, VA 22160
703-321-8510
FDG@NRTW.ORG
ROBERT W. KEASTER
CHAMBERLIN & KEATSER LLP
16000 VENTURA BOULEVARD
SUITE 301
ENCINO, CA 91436

RAYMOND J. LAJEUNESSE
NATIONAL RIGHT TO WORK LEGAL
DEFENSE FOUNDATION, INC.
8001 BRADDOCK ROAD,
SUITE 600
SPRINGFIELD , VA 22160
703-321-8510
RJL@NRTW.ORG
JOHN PAGLIARO
NEW ENGLAND LEGAL FOUNDATION
150 LINCOLN STREET
BOSTON, MA 02111
617-695-3666
JOHNPAGLIARO@NELFONLINE.ORG
TIMOTHY SANDEFUR
GOLDWATER INSTITUTE
500 EAST CORONADO ROAD
PHOENIX, AZ 85004
602-462-5000
KSCHLOTT@GOLDWATERINSTITUTE.ORG
ILYA SHAPIRO
CATO INSTITUTE
1000 MASSACHUSETTS AVE., NW
WASHINGTON, DC 20001
202-218-4600
ISHAPIRO@CATO.ORG
JOHN J. VECCHIONE
CAUSE OF ACTION INSTITUTE
1875 EYE STREET, NW
SUITE 800
WASHINGTON, DC 20006
202-499-2415
JOHN.VECCHIONE@CAUSEOFACTION.ORG

LUKE ANTHONY WAKE
NFIB SMALL BUSINESS LEGAL CENTER
1201 F ST., NW
#200
WASHINGTON, DC 20004
800-552-5342
LUKE.WAKE@NFIB.ORG

